U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                      Review of the Office of Justice Programs’
                          Paul Coverdell Forensic Science
                           Improvement Grants Program


                                      January 2008




                                      I-2008-001
                             EXECUTIVE SUMMARY


       The Department of Justice (Department) Paul Coverdell Forensic
Science Improvement Grants Program (Coverdell Program) provides
funds to state and local governments to improve the timeliness and
quality of forensic science and medical examiner services and to
eliminate backlogs in the analysis of forensic evidence. The National
Institute of Justice (NIJ), under the legal and fiscal oversight of the Office
of Justice Programs (OJP), distributed almost $15 million in fiscal year
(FY) 2006 Coverdell Program grants. In FY 2007, NIJ distributed almost
$16.5 million in Coverdell Program grants.

     Under the Justice for All Act of 2004 (Act), agencies applying for
Coverdell Program grants are required to certify that:

       a government entity exists and an appropriate process is in
       place to conduct independent external investigations into
       allegations of serious negligence or misconduct substantially
       affecting the integrity of forensic results committed by
       employees or contractors of any forensic laboratory
       system . . . that will receive a portion of the grant amount.1

      This requirement addresses negligence and misconduct in forensic
laboratories, including false testimony by some forensic laboratory
personnel, which led to wrongful convictions in several states.
Independent external investigations of allegations of serious negligence or
misconduct provide an important safeguard to reduce problems created
by inadequate forensic analysis.

       In December 2005, the Office of the Inspector General (OIG) issued
an inspection report that found that OJP had not enforced or exercised
effective oversight over the external investigation certification
requirement for the FY 2005 Coverdell Program.2 One particular concern
identified in the report was that OJP did not require grant applicants to
identify the government entities that they certified could perform
independent external investigations. After the report was issued and
after extensive discussions with the OIG, OJP agreed to require grant

       1  Title I of the Omnibus Safe Streets and Crime Control Act of 1968, Part BB,
codified at 42 U.S.C. § 3797k(4).

       2   U.S. Department of Justice Office of the Inspector General, Review of the
Office of Justice Programs’ Forensic Science Improvement Grant Program, Evaluation and
Inspections Report I-2006-002 (December 2005).

______________________________________________________________________________________
U.S. Department of Justice                                                         i
Office of the Inspector General
Evaluation and Inspections Division
applicants, prior to receiving funds, to provide the name of the
government entity, beginning with the FY 2007 Coverdell Program.

      To examine the effectiveness of OJP’s administration of the
external investigation certification requirement for the FY 2006 Coverdell
Program, we obtained the names of the entities (as OJP agreed to begin
doing in FY 2007) and contacted the entities to determine whether they
had the authority, a process in place, and the capabilities and resources
to conduct independent investigations of wrongdoing in forensic
laboratories.

RESULTS IN BRIEF

       Our review found that, although OJP has complied with the terms
of the statute requirement to obtain certifications from applicants, OJP’s
administration of the external investigation certification requirement
needs improvement. We found that not all forensic laboratories that
received FY 2006 Coverdell Program grant funds are covered by a
government entity with the authority and capability to independently
investigate allegations of serious negligence or misconduct. Further,
OJP’s guidance does not require grantees and sub-grantees (forensic
laboratories) to refer allegations of serious negligence and misconduct to
entities for investigation.

       Although OJP began requiring applicants to provide the names of
certified entities in FY 2007, our review showed that OJP does not
effectively administer the certification requirement. As a result, in this
report we make several recommendations to improve the effectiveness of
OJP’s grant administration and to better ensure that serious allegations
of negligence or misconduct are referred for independent investigations.

      Certified entities were not always qualified. During this review,
the OIG contacted the certifying officials for the FY 2006 Coverdell
Program grant recipients and asked them to identify the entities that
they had certified could conduct independent external investigations into
allegations of serious negligence or misconduct involving their forensic
laboratories. These officials identified a total of 233 entities that they
said could investigate allegations of negligence or misconduct.

       The OIG contacted 231 of the 233 entities and concluded that at
least 78 (34 percent) did not meet the external investigation certification
requirement because they lacked either the authority, the capabilities
and resources, or an appropriate process to conduct independent
external investigations into allegations of serious negligence or

______________________________________________________________________________________
U.S. Department of Justice                                                         ii
Office of the Inspector General
Evaluation and Inspections Division
misconduct by the forensic laboratories that received FY 2006 Coverdell
Program funds.

       For example, one entity named by a certifying official told us that it
conducted financial audits and had no authority to conduct
investigations of negligence or misconduct in forensic laboratory work.
An official from another entity told us that his entity did not have the
capabilities and resources to conduct investigations involving DNA
analysis and would have to request funds from the state legislature to
contract for DNA expertise if it received such an allegation. More than
half of all entity officials told us that they had not been previously
informed that their entities had been certified to conduct independent
external investigations as required by the Coverdell Program.

       The OIG identified shortcomings in OJP’s administration of the
FY 2006 external investigation certification that allowed the above
problems to occur. First, OJP did not require applicants to confirm to
OJP that applicants had identified government entities that had the
authority, a process in place, and the capabilities and resources to
conduct independent external investigations of forensic laboratories. In
fact, OJP could not ensure that the applicants had identified an entity at
all: Five certifying officials told the OIG that when they completed the
certification they did not have a specific entity in mind – they merely
signed the template OJP provided.

       Second, we found that OJP did not adequately review the
information it did obtain to ascertain that the certifications submitted by
the grantees were properly completed. Each certification must contain
specific statements and be signed by a knowledgeable official authorized
to make certifications on behalf of the applicant agency. Our review
identified certifications from 38 grantees that were signed by individuals
who did not appear to be from the applicant agency, including 17 in
which the applicant agency named on the certification was different from
the applicant agency that submitted the grant application. OJP still
awarded grants to these 38 agencies.

       Overall, our review found that OJP’s administration of the
Coverdell Program allowed it to award grants to applicants that did not
identify a qualified entity that can conduct independent investigations of
serious negligence or misconduct in forensic laboratories.

      Guidance and processes are not in place to ensure that
allegations of serious negligence or misconduct are referred to the
entities. During our review, we examined whether OJP’s guidance
directs grantees and forensic laboratories to refer allegations of
______________________________________________________________________________________
U.S. Department of Justice                                                         iii
Office of the Inspector General
Evaluation and Inspections Division
negligence and misconduct for investigation by the certified entities.
When we asked OJP about its guidance regarding handling allegations of
negligence and misconduct, we found that OJP has advised a grantee
(and the grantee advised forensic laboratories) that it did not have to
refer allegations of serious negligence and misconduct to the entity that
it certified for an independent investigation. OJP’s General Counsel
stated to the OIG his belief that, while the reporting of allegations is
consistent with the statute, the statute does not require that allegations
actually be referred to the entity that was certified for investigation.

       Also, we examined whether grantee and forensic laboratory
processes are adequate to ensure that allegations of negligence and
misconduct by forensic laboratories are referred for investigation by the
certified entities, and we found they are not. We asked certifying officials
for the FY 2006 Coverdell Program grant recipients whether there had
been allegations of negligence or misconduct at the laboratories that
received FY 2006 Coverdell Program funds and, if so, whether the
allegations were referred to the certified entities. The certifying officials
told us of seven allegations of negligence and misconduct. According to
the certifying officials, six of the seven allegations were reported to the
grant recipients’ entities for investigation. However, one allegation of
serious misconduct was not investigated by the entity. In that case, the
Director of a state crime laboratory reported to the OIG that laboratory
management investigated an allegation that two analysts had not been
following proper review procedures since 2002. The Director stated that
the matter was not reported to the government entity – the state police –
because the laboratory was “the best agency to handle the investigation.”
The two analysts resigned before the investigation was completed.

       Finally, in our discussions with entity officials we found that some
of the established processes for responding to allegations of negligence
and misconduct would not provide for an independent external
investigation. For example, one entity official told us that if there were
allegations of negligence or misconduct at the forensic laboratory, the
entity (a state council) would be informed, but the laboratory itself – not
the entity – would investigate the allegation.

      Overall, OJP should improve its administration of the certification
requirement by providing guidance that directs grantees and forensic
laboratories to refer serious allegations of negligence or misconduct to
the certified entities for independent investigation.




______________________________________________________________________________________
U.S. Department of Justice                                                         iv
Office of the Inspector General
Evaluation and Inspections Division
CONCLUSION AND RECOMMENDATIONS

       We concluded that, although OJP has complied with the terms of
the statute to obtain certifications from applicants, OJP’s administration
of the Coverdell Program external investigation certification requirement
is not effective for ensuring that qualified entities are certified, and that
allegations of serious negligence or misconduct are referred for
investigation. Our review found that one-third of the entities identified
by the FY 2006 Coverdell Program certifying officials lacked the authority
or capability to independently investigate allegations of negligence or
misconduct at forensic laboratories. Beginning with the FY 2007
Coverdell Program, OJP has agreed to require grant applicants, prior to
receiving funds, provide the name of the government entity. Obtaining
the names of the entities is a step forward and will ensure that
applicants do not submit certifications when they have not actually
identified entities capable of independently investigating misconduct or
negligence. However, as our review demonstrated, requiring only that an
applicant provide the name of an entity is insufficient to ensure the
entity can conduct independent investigations. To improve its
administration of the Coverdell Program, we believe that OJP needs to
require that applicants provide sufficient information to ensure that the
applicants have accurately assessed the qualifications and independence
of the entities they certify.

       Moreover, we are concerned that current guidance and procedures
do not ensure that allegations of serious negligence or misconduct are
actually referred for an independent investigation by a qualified entity.
Under OJP’s current guidance, the external investigation certification
requirement established by Congress is satisfied solely with the
submission of a certification form, and nothing more is required if
allegations are received. We believe this position undermines and
diminishes the utility of the Coverdell Program for improving the
oversight of forensic laboratories. OJP should enhance the effectiveness
of the Coverdell Program for ensuring the integrity of forensic analysis by
requiring that allegations of wrongdoing at forensic laboratories actually
be referred to the certified entities for independent investigation.

       To improve OJP’s administration of the Coverdell Program and
better ensure that allegations of negligence or misconduct are subject to
independent external investigation, the OIG recommends that OJP take
the following actions:




______________________________________________________________________________________
U.S. Department of Justice                                                         v
Office of the Inspector General
Evaluation and Inspections Division
       1. Revise the certification template to require that applicants name
          the government entities and confirm that the government
          entities have:

              a. the authority,
              b. the independence,
              c. a process in place that excludes laboratory management,
                 and
              d. the resources

          to conduct independent external investigations into allegations
          of serious negligence or misconduct by the forensic laboratories
          that will receive Coverdell Program funds.

       2. Provide applicants with guidance that allegations of serious
          negligence or misconduct substantially affecting the integrity of
          forensic results are to be referred to the certified government
          entities.

       3. Revise and document the Coverdell Program application review
          process so that only applicants that submit complete external
          investigation certifications are awarded grants.




______________________________________________________________________________________
U.S. Department of Justice                                                         vi
Office of the Inspector General
Evaluation and Inspections Division
                               TABLE OF CONTENTS



BACKGROUND ................................................................................ 1
PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW ....... 5
RESULTS OF THE REVIEW.............................................................. 7
CONCLUSION AND RECOMMENDATIONS ...................................... 17
APPENDIX I: FY 2006 EXTERNAL INVESTIGATION CERTIFICATION
    TEMPLATE........................................................................... 19
APPENDIX II: GRANTEES, SUB-GRANTEES, AND GOVERNMENT
    ENTITIES CERTIFIED IN FY 2006 ........................................ 20
APPENDIX III: THE OFFICE OF JUSTICE PROGRAMS RESPONSE. 35
APPENDIX IV: OIG’S ANALYSIS OF THE OFFICE OF JUSTICE
    PROGRAMS RESPONSE........................................................ 41




______________________________________________________________________________________
U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                   BACKGROUND


      The Office of Justice Programs (OJP) is responsible for developing
programs that increase the nation’s capacity to prevent and control
crime, improve criminal and juvenile justice systems, increase knowledge
about crime, and assist crime victims. Led by an Assistant Attorney
General, OJP is divided into five bureaus that provide training, collect
and disseminate crime statistics, support technology development and
research, and administer Department of Justice (Department) grants.3
OJP’s Office of the General Counsel provides legal advice to the five
bureaus. In fiscal year (FY) 2006, OJP and its bureaus awarded 4,875
grants totaling $2.5 billion to state and local agencies to assist with
criminal justice activities.

       The National Institute of Justice (NIJ), one of OJP’s bureaus, is the
Department’s primary research, development, and evaluation agency.
NIJ awards grants to educational institutions, public agencies, nonprofit
and faith-based organizations, individuals, and certain for-profit
organizations to conduct independent research on crime control and
justice issues. In addition, NIJ programs include forensic laboratory
capacity development, technology development, technology assistance for
state and local public safety agencies, social science research and
evaluation, and dissemination of information. In FY 2006, NIJ awarded
490 grants totaling over $185 million.

NIJ Grant Process

       NIJ solicits grant applications by posting grant program
announcements on its website. Program announcements contain the
grant program and eligibility description, the application deadline,
instructions for applying, and a list of required documents. Applicants
must provide certain information in their applications, including a
detailed program narrative and abstract describing the purpose, goals,
and objectives of the project to be funded; a budget detail worksheet and
narrative; and several standard forms. NIJ’s program announcements
may also require that applicants make certain assurances in their
applications by certifying that they have taken or will take certain actions
and will comply with all applicable federal statutes and regulations
during the period covered by the grant. If an applicant provides all

       3 The five OJP bureaus are the National Institute of Justice, the Bureau of
Justice Assistance, the Bureau of Justice Statistics, the Office of Juvenile Justice and
Delinquency Prevention, and the Office for Victims of Crime.

______________________________________________________________________________________
U.S. Department of Justice                                                       1
Office of the Inspector General
Evaluation and Inspections Division
requested information and qualifies, the NIJ grant program manager
forwards the application to the NIJ Director for approval. If the NIJ
Director approves or recommends (depending on the funding
authorization) the application, OJP awards the grant.

Paul Coverdell Forensic Science Improvement Grants Program

       The Paul Coverdell Forensic Science Improvement Grants Program
(Coverdell Program), administered by OJP through NIJ’s Investigative and
Forensic Science Division in the Office of Science and Technology,
provides funds to state and local governments to (1) improve the quality
and timeliness of forensic science and medical examiner services and
(2) eliminate backlogs in the analysis of forensic evidence, including
controlled substances, firearms examination, forensic pathology, latent
prints, questioned documents, toxicology, and trace evidence.4

      To request a Coverdell Program grant, an applicant must submit,
in addition to all other required documents, a certification that

       a government entity exists and an appropriate process is in
       place to conduct independent external investigations into
       allegations of serious negligence or misconduct substantially
       affecting the integrity of forensic results committed by
       employees or contractors of any forensic laboratory system,
       medical examiner’s office, coroner’s office, law enforcement
       storage facility, or medical facility in the State that will
       receive a portion of the grant amount.5 [See Appendix I.]

This external investigation certification became a requirement on
October 30, 2004, as a result of the Justice for All Act of 2004, which
amended the Omnibus Crime Control and Safe Streets Act of 1968.6

     Because negligence and misconduct in forensic laboratories can
undermine the justice system, the establishment of this external


        4 “States” include the 50 states, the District of Columbia, the Commonwealth of

Puerto Rico, the U.S. Virgin Islands, American Samoa, Guam, and the Commonwealth
of the Northern Mariana Islands. For certain purposes, American Samoa and the
Northern Mariana Islands are treated as one state.

       5  Title I of the Omnibus Safe Streets and Crime Control Act of 1968, Part BB,
codified at 42 U.S.C. § 3797k(4).

       6  The Omnibus Crime Control and Safe Streets Act of 1968, as amended by the
Justice for All Act of 2004 (Pub. L. No. 108-405), codified at 42 U.S.C. § 3797k(4).

______________________________________________________________________________________
U.S. Department of Justice                                                       2
Office of the Inspector General
Evaluation and Inspections Division
investigation certification helps to provide a necessary safeguard.7
Forensic laboratory negligence and misconduct and false testimony by
forensic laboratory personnel have led to wrongful convictions in several
states. For example, in 2006, Marlon Pendleton was exonerated after
serving 10 years for rape and robbery. The faulty analysis of a crime
laboratory analyst contributed to his conviction. In 2007, Curtis Edward
McCarty was exonerated after serving 21 years for murder. McCarty was
convicted and sentenced to death based on the false testimony of a
forensic analyst, whose misconduct contributed to at least two other
convictions later overturned by DNA evidence.

The 2005 Office of the Inspector General Report

      In 2005, the Office of the Inspector General (OIG) evaluated NIJ’s
implementation of the external investigation certification requirement.8
The OIG report concluded that NIJ did not enforce the external
investigation certification requirement during the application process or
exercise effective oversight of this aspect of the FY 2005 Coverdell
Program. Specifically, the OIG found that NIJ did not provide necessary
guidance to applicants and did not require applicants to submit the
information necessary to permit OJP to evaluate the certifications.

      The OIG report recommended that OJP (1) provide guidance to
applicants regarding the external investigation certification, (2) require
that each applicant provide the name of the government entity that could
conduct independent external investigations of serious negligence or
misconduct related to forensic laboratories, and (3) consider requiring
each applicant to submit a letter from that government entity
acknowledging that it had the authority and process to conduct
independent external investigations.

      OJP agreed with the first recommendation to provide guidance to
applicants on independent external processes and did so in the FY 2006
Coverdell Program Announcement. However, OJP initially resisted
implementing the second recommendation to require each applicant to
provide the name of the government entity that could conduct
independent external investigations. Eventually, after much discussion

       7 In this report, the terms “forensic laboratories” and “forensic laboratory”
include medical examiners’ offices, coroners’ offices, law enforcement storage facilities,
and medical facilities.

       8   U.S. Department of Justice Office of the Inspector General, Review of the
Office of Justice Programs’ Forensic Science Improvement Grant Program, Evaluation and
Inspections Report I-2006-002 (December 2005).

______________________________________________________________________________________
U.S. Department of Justice                                                       3
Office of the Inspector General
Evaluation and Inspections Division
with the OIG on this recommendation, OJP agreed to implement this
recommendation in FY 2007. However, OJP has declined to implement
Recommendation 3, requiring a letter from the government entity
identified in the grant application as prepared to conduct independent
external investigations.




______________________________________________________________________________________
U.S. Department of Justice                                                       4
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW


Purpose

       The purpose of this review was to evaluate whether OJP’s
administration of the Coverdell Program external investigation
certification requirement was effective in ensuring that allegations of
serious negligence or misconduct are subject to independent external
investigations.

Scope

      The scope of this review was OJP’s administration of the FY 2006
external investigation certification requirement.

Methodology

       Document Review. The OIG reviewed the FY 2006 Coverdell
Program Announcement and the external investigation certifications
submitted by the 87 FY 2006 grantees.9 The 87 grantees submitted a
total of 118 certifications. Some grantees submitted a single
certification, which applied to the grantee and its sub-grantees; other
grantees submitted multiple certifications for themselves and each of
their sub-grantees; and one grantee did not submit a certification.

       Interviews. To obtain the names of the government entities
certified, the OIG conducted telephone interviews with the 118 officials
who signed the external investigation certifications.10 The OIG also
interviewed a representative from the one grantee that did not submit a
certification.11




        9 OJP awarded 88 Coverdell Program grants in FY 2006, but one of those grants

was in response to an FY 2005 application. Therefore, the OIG excluded it from this
review.

       10  If a certifying official was no longer in office or did not know if a government
entity existed, the OIG interviewed the agency representative who was most familiar
with the Coverdell Program and the external investigation certification.

       11  Although OJP awarded this grant, at the time of the interview, the grantee
had not yet received funds and would not receive funds until it submitted the external
investigation certification.

______________________________________________________________________________________
U.S. Department of Justice                                                       5
Office of the Inspector General
Evaluation and Inspections Division
       These 119 officials identified 233 government entities in response
to the external investigation certification requirement. To assess whether
these government entities had the authority, a process in place, and the
capabilities and resources to conduct independent external
investigations into allegations of negligence or misconduct committed by
the forensic laboratories that received Coverdell Program funds, the OIG
conducted telephone interviews with representatives from 231
government entities. We spoke either with the entity representative that
was identified by name by the certifying official or, in cases where the
certifying official did not have a specific point of contact, we called the
entity and asked to be directed to the person responsible for investigating
allegations of negligence or misconduct in the forensic laboratories that
received Coverdell Program funds. The OIG was able to reach
representatives from all but two entities.

       Within the Department of Justice, the OIG interviewed the
Coverdell Program Manager at NIJ, the Acting Chief of the Investigative
and Forensic Sciences Division in NIJ, the Deputy Director of the Office
of Science and Technology in NIJ, the Acting Principal Deputy Director of
NIJ, the General Counsel for OJP, and the OJP Office of General Counsel
attorney assigned to the Coverdell Program. The OIG also interviewed
the NIJ Acting Principal Deputy Director regarding his role and
responsibilities as an OJP Deputy Assistant Attorney General in
FY 2006.




______________________________________________________________________________________
U.S. Department of Justice                                                       6
Office of the Inspector General
Evaluation and Inspections Division
                           RESULTS OF THE REVIEW


       Although OJP has complied with the statutory
       requirement     by    obtaining    external   investigation
       certifications from applicants, OJP’s administration of
       the requirement is not effective for ensuring that
       government entities that can conduct independent
       external investigations of forensic laboratories are
       certified. We found that FY 2006 Coverdell Program
       grantees certified government entities that did not have
       the authority, capabilities, or process to independently
       investigate allegations of serious negligence or
       misconduct. Moreover, OJP’s guidance does not require
       that grantees and forensic laboratories refer serious
       allegations of negligence or misconduct to the entities
       for independent investigation.        Although OJP began
       requiring applicants to provide the names of certified
       entities in FY 2007, our review showed that OJP’s
       administration of the external investigation certification
       must be improved so (1) applicants identify entities with
       the    authority    and    capability    to  independently
       investigate allegations of serious negligence or
       misconduct, and (2) allegations are referred to the
       entities for investigation.

       The following sections describe our examination of qualifications of
the entities identified by certifying officials to conduct independent
investigations, OJP’s guidance to grant applicants for completing
certifications, and OJP’s internal guidance for reviewing certifications
and whether procedures in place were effective to ensure that allegations
of negligence and misconduct in forensic laboratories were referred for
independent investigations by the certified entities.

Qualifications of Entities Named by Certifying Officials

      In FY 2006, the 87 agencies that received Coverdell Program grants
submitted a total of 118 external investigation certifications with their
applications.12 The OIG contacted the officials who signed the

       12  “Agencies” in this report refers to state administering agencies and units of
local government (grantees). See Appendix II for the names of the grantees (agencies),
sub-grantees (forensic laboratories that received Coverdell Program funds), and
government entities.

______________________________________________________________________________________
U.S. Department of Justice                                                       7
Office of the Inspector General
Evaluation and Inspections Division
certifications and a representative from the one grantee that did not
submit a certification and obtained the names of 233 government entities
that the officials stated were the entities that could conduct independent
investigations of negligence or misconduct at the forensic laboratories.
The OIG contacted 231 entities and concluded that 78 (34 percent) did
not meet the external investigation certification requirement because
they lacked either the authority, the capabilities and resources, or an
appropriate process to conduct independent external investigations into
allegations of serious negligence or misconduct by the forensic
laboratories that received FY 2006 Coverdell Program funds.

       Entities’ Authority to Investigate Allegations at the Forensic
Laboratories. Of the 231 entities we contacted, we found that 202
(87 percent) had the authority to independently investigate allegations of
negligence and misconduct at forensic laboratories. Officials at these
entities told us that their entities’ authority to conduct investigations was
based on a state statute, derivative authority, or a formal Memorandum
of Understanding (MOU), which we accepted.13

      However, 29 of the entities (13 percent) did not have clear
authority to investigate allegations at the forensic laboratories. In these
cases, entity officials cited informal agreements with the forensic
laboratories as their authority or stated that the entity’s authority was
granted by the forensic laboratories on a case-by-case basis. Moreover,
some officials stated that they did not have the authority to conduct the
investigations. Of the 29 entities that we determined did not clearly have
the requisite authority:

       •    Officials from 16 entities told us that they did not have the
            authority to conduct the type of investigation required by the
            certification. For example:

            o One entity official stated that the entity is an investigative
              agency but conducts only financial compliance audits.



       13   Of the 202 government entities that had the authority to conduct
independent external investigations, over half (102) based their authority on state
statutes or local ordinances. Representatives from 41 government entities stated that
the chief of police, sheriff, or internal affairs policy granted them the authority to
investigate. Representatives from 28 government entities cited their authority as state
or local prosecutors. Representatives from the remaining 31 government entities cited
other means of authority, such as a special commission’s authority established by the
state legislature.

______________________________________________________________________________________
U.S. Department of Justice                                                       8
Office of the Inspector General
Evaluation and Inspections Division
           o Officials from three government entities – two county
             superior courts and a county crime laboratory – told us that
             their organizations were not investigative agencies and so did
             not have the authority to investigate.

           o Officials from four entities stated that the statutory language
             regarding the entity’s investigative authority was so vague
             that they did not know if they had the authority to conduct
             independent external investigations.

       •   Officials from nine entities said that they were granted their
           authority on a case-by-case basis by the forensic laboratory
           requesting an investigation.

       •   Officials from four entities told us that they had informal
           agreements under which they would arrange for any allegations
           to be investigated.

      Entities’ Capability to Conduct Independent External
Investigations. The OIG also examined whether each entity had the
capability to investigate allegations of negligence and misconduct at
forensic laboratories if such allegations were referred to it. We accepted
an entity as being capable if it told us that its staff had the forensic
knowledge and technical expertise necessary to investigate allegations
related to forensic laboratories, or if the entity had the resources to
obtain the needed expertise. Overall, 17 of the 231 entities (7 percent)
reported that they lacked either the technical capability or the available
resources to investigate allegations of negligence or misconduct at the
forensic laboratories. For example:

       •   The certifying official for one grantee identified the state’s Office
           of the Inspector General as the entity that would investigate
           allegations of negligence and misconduct at a forensic
           laboratory. However, a Senior Assistant Inspector General in
           that office told us that if the allegation required technical
           expertise related to DNA, the office would not have the
           capability to respond immediately because it would have to
           request funding from the state legislature to contract for DNA
           expertise.

       •   The entity identified by another certifying official was a state
           police board. We asked the president of the state police board if
           it had the capabilities and resources to conduct the
           investigations, and he replied, “No, the police board refers

______________________________________________________________________________________
U.S. Department of Justice                                                       9
Office of the Inspector General
Evaluation and Inspections Division
           allegations to the appropriate investigative entity. It does not
           perform investigations itself.” He said that potential criminal
           activity would be referred to the State Attorney. A personnel
           matter would be referred to the labor board.

       Entity Processes for Conducting Independent Investigations. The
third aspect that the OIG examined to determine if the entities met the
certification requirement was whether each entity had the required
“appropriate process . . . in place to conduct independent external
investigations into allegations” of wrongdoing in forensic laboratories.
We found that 62 of the 231 entities (27 percent) did not have an
appropriate process in place. Of these 62, officials at 19 entities stated
to the OIG that they did not have a process in place or told us that the
process was being developed but was not yet in place:

       •   Officials at 15 entities stated that they did not have a process in
           place. Five of these officials told us that they were developing
           processes.

       •   Officials at four entities stated that, although their entities did
           not have written procedures, they would create a process if they
           received an allegation.

      In an additional 43 cases, we determined that the processes in
place were not appropriate for conducting independent external
investigations. In these cases, we concluded that the investigations were
not external and independent because the laboratory’s management or
employees were involved in or controlled the investigative process. For
example:

       •   The Quality Manager/Acting Deputy Director of a state
           department of forensic sciences stated that the Director of that
           department decides whether allegations of wrongdoing will be
           investigated internally or will be referred to another entity for
           investigation. If the Director chooses to conduct an internal
           investigation, it is assigned to an in-house committee. If the
           committee finds an allegation to be substantiated, it forwards
           the case to the local District Attorney or the state Attorney
           General.

       •   At a state toxicological laboratory, any allegations of negligence
           or misconduct are referred to the laboratory manager, who
           notifies the Director of the forensic laboratory services bureau,
           and the Director informs the investigative entity (a state forensic

______________________________________________________________________________________
U.S. Department of Justice                                                      10
Office of the Inspector General
Evaluation and Inspections Division
           investigations council). However, the laboratory itself conducts
           the investigation of the allegations. The results of the
           laboratory’s investigation are presented to the state forensic
           investigations council and, if the council decides further
           investigation is necessary, the matter is referred to the state
           Attorney General’s office or the state patrol for further
           investigation.

       •   The named entity for a forensic science services division in a
           county Sheriff’s department was the Sheriff’s internal affairs
           office. Under the process described to the OIG, only the
           Assistant Sheriff who oversees the forensic science services
           division can initiate investigations of allegations against the
           division. If an allegation is submitted directly to the internal
           affairs office, that office presents it to the Assistant Sheriff, who
           reviews the allegation and decides whether it should be
           investigated by the internal affairs office. If the Assistant Sheriff
           requests an investigation, the internal affairs office conducts
           the investigation and presents the findings to the Assistant
           Sheriff, who decides whether the allegation has been sustained.

      The requirement that laboratory management not be in a position
to determine the course of investigations is addressed in the guidance
provided to applicants by OJP. In its FY 2006 Coverdell Program
Announcement, OJP provided examples that applicants could use to help
them identify entities that meet the certification requirement. For
example, OJP’s guidance included the following scenario to indicate the
independence required for the entity’s investigation:

       An applicant agency determines that the forensics laboratory
       director (or some other individual in the chain of command
       at the laboratory) has sole responsibility to conduct
       investigations into allegations of serious negligence or
       misconduct committed by laboratory employees.

       Guidance: Under these facts, it would not be appropriate for
       the applicant to execute a certification because there is no
       process in place to conduct independent, external
       investigations into allegations of serious negligence or
       misconduct committed by laboratory employees and
       contractors.

       In examining the entities’ authorities, capabilities, and processes,
we also found that there was limited communication between the
certifying officials and investigative entity officials about the Coverdell
______________________________________________________________________________________
U.S. Department of Justice                                                      11
Office of the Inspector General
Evaluation and Inspections Division
Program certification requirement. Only 47 of 118 certifying officials (40
percent) told us that they discussed the Coverdell Program certification
with a representative from the investigative entity prior to signing the
certification. Because most certifying officials did not discuss the
certification requirement with an investigative entity representative,
representatives from 158 investigative entities (68 percent) did not know
about the requirement.14 One entity official specifically stated that “it
would have been nice if [the grantee] had let us know that they were
going to name us.” This official told us that his entity had the authority
but not the capabilities and resources to investigate allegations involving
DNA analysis.

OJP Administration of the Coverdell Program Investigative
Requirement

       The OIG identified additional shortcomings in OJP’s administration
of the FY 2006 Coverdell Program external investigation certification.
First, OJP did not require applicants to confirm to OJP that applicants
had identified qualified entities. Second, OJP did not adequately review
the information it did obtain to ascertain that the certifications
submitted by the grantees were properly completed.

       Information Required From Grant Applicants. In FY 2006,
Coverdell Program applicants were required to sign an external
investigation certification form that copied the exact statutory language
of the certification requirement (see Appendix I). OJP did not require
applicants to confirm to OJP that applicants had identified government
entities that had the authority, a process in place, and the capabilities
and resources to conduct independent external investigations of forensic
laboratories. Moreover, because applicants were not asked to provide the
names of the entities they certified, OJP could not know whether an
applicant had identified an entity at all. In fact, we found that some had
not certified any entity. Five certifying officials told us that when they
completed the certification they did not have a specific entity in mind –
they merely signed the template that OJP provided.

       OJP’s Review of Certifications. In FY 2006, OJP did not sufficiently
review the certifications submitted by the grantees to ascertain whether
they were properly completed. OJP guidelines required that each
certification contain specific statements and be signed by a
knowledgeable official who is authorized to make certifications on behalf

       14 Nine representatives stated that they did not know about the certification
because they were new to their positions.

______________________________________________________________________________________
U.S. Department of Justice                                                      12
Office of the Inspector General
Evaluation and Inspections Division
of the applicant agency.15 An OJP official told the OIG that OJP only
evaluates each certification “on its face.”16

       Yet, our review of the FY 2006 Coverdell Program certifications
identified certifications from 38 grantees that were signed by individuals
who did not appear to be from the applicant agency and who thus did
not appear to have the authority to make a certification on behalf of the
applicant agency. In the certifications submitted by 17 of these 38
grantees, the applicant agency named on the certification was not the
agency that submitted the grant application. For example, one
application submitted by a state department of community, trade, and
economic development contained a certification signed by the Director of
a forensic laboratory service bureau. It is not clear that the Director of a
forensic laboratory service bureau would be authorized to sign a
certification on behalf of the applicant agency. Furthermore, the
applicant agency named on the certification was the state patrol and not
the department of community, trade, and economic development.

       We discussed how certifications should be completed with the
Deputy Director of NIJ’s Office of Science and Technology, who confirmed
to the OIG that the applicant agency named on the certification should
match the agency on the application. Nonetheless, OJP had awarded
grants to these 38 agencies.17




       15   In the FY 2006 Coverdell Program Announcement, OJP instructed applicants
to submit an external investigation certification and to use the template in the
announcement (see Appendix I). Applicants were also advised that the certification
“must be executed by an official who is both familiar with the requirements of the
certification and authorized to make the certification on behalf of the applicant agency.”

        16 OJP did not develop specific guidance to its staff for reviewing the FY 2006

Coverdell Program external investigation certifications. Rather, the OJP reviewer simply
followed the OJP Grant Manager’s Manual, which directs program managers to review
“grant applications for completeness” using a generic application review checklist.
According to the Deputy Director of NIJ’s Office of Science and Technology, a review
should ensure that “on its face the [external investigation] certification looks accurate,”
that is, every field was filled out, the applicant agency named on the certification and
the grant application were the same, and the certification was signed by someone in a
position of authority.

       17  OJP rejected 26 other applications because they did not include an external
investigation certification or the certification was not on the required template or was
signed in 2005.

______________________________________________________________________________________
U.S. Department of Justice                                                      13
Office of the Inspector General
Evaluation and Inspections Division
Entity Investigations Into Allegations of Wrongdoing

       During our review, we examined whether OJP’s guidance directs
grantees and forensic laboratories to refer allegations of negligence or
misconduct to the certified entities for an independent investigation. We
were surprised to find that OJP has advised a grantee that it did not
have to refer allegations of serious negligence or misconduct to the entity
that it certified for an independent investigation. In a November 20,
2006, e-mail, OJP officials advised the grantee, which then advised
forensic laboratories, that the certification requirement did not impose an
obligation to report allegations of serious negligence or misconduct to the
government entities certified. We learned that it is OJP’s position that
the certification only requires that a government entity exist with a
process in place to conduct independent external investigations into
allegations of negligence or misconduct, but does not require grantees or
laboratories to actually refer such allegations to the entity. OJP’s
General Counsel told the OIG that he believed that, while the reporting of
allegations is consistent with the statute, the statute does not require
that allegations actually be referred to the entity that was certified for
investigation.

      Also, we examined whether grantee and forensic laboratory
processes were adequate to ensure that allegations of negligence or
misconduct were referred to the certified entities for an independent
investigation. We asked certifying officials for the FY 2006 Coverdell
Program grant recipients whether there had been allegations of
negligence or misconduct at the laboratories that received FY 2006
Coverdell Program funds and, if so, whether the allegations were
investigated by the certified entities. These officials told us that, in the
6 months since the FY 2006 grants were awarded, there were seven
allegations of negligence and misconduct in forensic laboratories that
received grant funds. The following describes the allegations and the
action taken on each:

   •   Allegation 1: The Innocence Project questioned the credentials of a
       state firearms examiner who had lied about where he went to
       college. The examiner had worked for the state police since 1991
       and had testified in court numerous times. The state police’s
       internal affairs division, the government entity that investigates
       allegations of negligence or misconduct in the state police, had an
       investigation in progress at the time of the OIG’s review. State
       police officials had notified State Attorneys, the office of the Public
       Defender, and the state Attorney General’s office that the
       investigation was under way as of March 2007.

______________________________________________________________________________________
U.S. Department of Justice                                                      14
Office of the Inspector General
Evaluation and Inspections Division
   •   Allegation 2: The management of a laboratory investigated
       allegations that two analysts had not been following proper review
       procedures since 2002. According to the certifying official, the
       laboratory’s questioned document section implemented a new
       technical review procedure for reviewing documents in 2002, but
       the two analysts had not been following the new procedure. The
       analysts’ actions were not identified by laboratory management
       until October 2006 when one of the two analysts confessed. Both
       analysts resigned shortly thereafter. The matter was not referred
       to the certified investigative entity (the state police) because,
       according to the laboratory Director, the laboratory was “the best
       agency to handle the investigation.” The laboratory contacted
       every agency that submitted documents to the section since 2002
       and asked them to review the cases to see if they wanted the
       evidence retested. The laboratory also contacted every prosecuting
       attorney involved. The investigation remained ongoing as of
       March 16, 2007.

   •   Allegations 3, 4, and 5: One certifying official stated that FY 2006
       Coverdell Program funds were distributed to 15 forensic
       laboratories in the state. He told us that there had been three
       allegations of wrongdoing since September 2006 and all were
       under investigation by the state commission of investigation.

   •   Allegation 6: An inmate filed a lawsuit alleging false laboratory
       results had been used in the prosecution of his case. According to
       the certifying official, the inmate alleged that a laboratory
       technician had reported on five hairs from a stocking cap when
       only three hairs had been found. The lawsuit included charges
       against prosecutors and police personnel as well as the laboratory.
       The laboratory portion of the lawsuit was settled with no admission
       of wrongdoing.

   •   Allegation 7: The certifying official told us that an allegation was
       made by a crime scene technician against a detective and that the
       allegation was under investigation by the entity, a police
       department’s internal affairs unit. The certifying official did not
       describe the alleged wrongdoing, and the entity official declined to
       confirm or deny to the OIG that the entity was conducting an
       investigation.

       Finally, we examined whether the entities’ processes allowed for
receiving allegations from any source. Officials from 200 entities told us
that they would accept allegations from all sources. For example, 13

______________________________________________________________________________________
U.S. Department of Justice                                                      15
Office of the Inspector General
Evaluation and Inspections Division
entity officials told the OIG that they accepted anonymous complaints,
and 2 said they had hotlines anyone could use to report an allegation.
However, one entity official stated that, although his entity could accept
allegations from any source, outside sources would not know to call his
entity with an allegation.

       In contrast, officials at 12 entities told us that they would not
accept allegations from all sources. Some of these officials stated that
their entities would accept allegations only from the forensic laboratories
or from sources within the entity itself. Allegations received from outside
of these organizations would first have to go through local officials, such
as the local District Attorneys or the local police department officials.
One government entity representative said he did not know if his entity
had the authority to accept allegations from outside sources.




______________________________________________________________________________________
U.S. Department of Justice                                                      16
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS


       We concluded that, although OJP has complied with the terms of
the statute to obtain certifications from applicants, OJP’s administration
of the external investigation certification requirement needs
improvement. Our review found that OJP’s administration of the
Coverdell Program external investigation certification requirement is not
effective for ensuring (1) that grants are awarded only to applicants that
have certified entities that can independently investigate allegations of
serious negligence or misconduct in forensic laboratories, or (2) that
serious allegations of negligence or misconduct at forensic laboratories
are referred to the certified entities for investigation.

       Overall, one-third of 231 entities identified by the FY 2006
Coverdell Program certifying officials lacked the authority or capability to
independently investigate allegations of negligence or misconduct at
forensic laboratories. Beginning with the FY 2007 Coverdell Program,
OJP has agreed to require grant applicants to name the investigative
entities that they certified have a process in place to conduct
independent external investigations. Obtaining the name of the entity is
a step forward and will ensure that applicants do not submit
certifications when they have not actually identified entities capable of
independently investigating misconduct or negligence. However, as our
review demonstrated, obtaining the name of an entity is insufficient to
ensure that an applicant certifies an entity that can conduct independent
investigations.

      Moreover, we are concerned that current guidance and procedures
do not ensure that allegations of serious negligence or misconduct are
actually referred for an independent investigation by a qualified entity.
Under OJP’s current guidance, the external investigation certification
requirement established by Congress is satisfied solely with the
submission of a certification form, and nothing more is required if
allegations are received. We believe OJP’s position undermines and
diminishes the utility of the Coverdell Program for improving the
oversight of forensic laboratories.

      We concluded that OJP’s administration of the Coverdell Program
external investigation certification requirement should be improved to
reduce the chance that the administration of justice is based on
inadequate forensic analysis. To improve its administration of the
Coverdell Program, the OIG believes that OJP needs to require that
applicants provide sufficient information on the certification form to

______________________________________________________________________________________
U.S. Department of Justice                                                      17
Office of the Inspector General
Evaluation and Inspections Division
ensure that applicants have accurately assessed the qualifications and
independence of the entities they certify, and OJP must diligently review
the certifications submitted. Further, OJP should enhance the
effectiveness of the Coverdell Program for ensuring the integrity of
forensic analysis by requiring that allegations of wrongdoing at forensic
laboratories actually be referred to the certified entities for independent
investigation.

       To improve OJP’s administration of the Coverdell Program and
ensure that allegations of negligence or misconduct are subject to
independent external investigations, the OIG recommends that OJP take
the following actions:

       1. Revise the certification template to require that applicants name
          the government entities and confirm that the government
          entities have:

              a. the authority,
              b. the independence,
              c. a process in place that excludes laboratory management,
                 and
              d. the resources

          to conduct independent external investigations into allegations
          of serious negligence or misconduct by the forensic laboratories
          that will receive Coverdell Program funds.

       2. Provide applicants with guidance that allegations of serious
          negligence or misconduct substantially affecting the integrity of
          forensic results are to be referred to the certified government
          entities.

       3. Revise and document the Coverdell Program application review
          process so that only applicants that submit complete external
          investigation certifications are awarded grants.




______________________________________________________________________________________
U.S. Department of Justice                                                      18
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX I: FY 2006 EXTERNAL INVESTIGATION CERTIFICATION
                        TEMPLATE




______________________________________________________________________________________
U.S. Department of Justice                                                      19
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX II: GRANTEES, SUB-GRANTEES, AND GOVERNMENT
                ENTITIES CERTIFIED IN FY 2006



        GRANTEE                    SUB-GRANTEE              GOVERNMENT ENTITY
Alaska Department of
Public Safety, Scientific   None                          Alaska State Troopers
Crime Laboratory
                                                          Municipality of Anchorage,
                            Anchorage Police
                                                          Internal Auditor
Municipality of Anchorage   Department, Forensic
                                                          Anchorage Police
                            Crime Laboratory
                                                          Department, Internal Affairs
                                                          Alabama Attorney General’s
                                                          Office
Alabama Department of
                            Alabama Department of         Alabama Bureau of
Economic and Community
                            Forensic Sciences             Investigation
Affairs
                                                          Alabama Department of
                                                          Forensic Sciences
Arkansas Department of                                    Arkansas Division of
                            Arkansas State Crime
Finance and                                               Legislative Audit
                            Laboratory
Administration                                            Arkansas State Police
                            Pima County Office of the     Pima County Superior Court
                            Medical Examiner              Arizona Medical Board
                            Maricopa County Office of     Maricopa County Superior
                            the Medical Examiner          Court
                            Mohave County Office of       Mohave County Superior
                            the Medical Examiner          Court
                                                          Arizona Attorney General’s
                            Arizona Department of         Office
                            Public Safety, Crime          Arizona Department of
Arizona Criminal Justice    Laboratory                    Public Safety, Office of
Commission                                                Professional Standards
                            Tucson Police Department,     Tucson Police Department,
                            Crime Laboratory              Oversight Committee
                                                          Phoenix Police Department,
                            Phoenix Police Department,
                                                          Professional Standards
                            Crime Laboratory
                                                          Bureau
                                                          Arizona Attorney General’s
                            Mesa Police Department,       Office
                            Crime Laboratory              Mesa Police Department,
                                                          Internal Affairs
                            Maricopa County Office of     Maricopa County Superior
Maricopa County
                            the Medical Examiner          Court
                            Ventura County Sheriff’s      Ventura County District
County of Ventura           Department, Forensic          Attorney’s Office
                            Sciences Laboratory           Blue Ribbon Grand Jury




______________________________________________________________________________________
U.S. Department of Justice                                                      20
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE               GOVERNMENT ENTITY
                            California Department of      California Department of
                            Justice, Bureau of Forensic   Justice, Mission Support
                            Services                      Branch
California Governor’s       Kern County District          Kern County District
Office of Emergency         Attorney’s Office, Forensic   Attorney’s Office, Bureau of
Services, Law Enforcement   Science Division              Investigations
and Victim Services         Sacramento County
Division                                                  Sacramento County District
                            District Attorney’s Office,
                                                          Attorney’s Office, Bureau of
                            Laboratory of Forensic
                                                          Investigations
                            Services
                            Santa Clara County            Santa Clara County District
                            District Attorney’s Office,   Attorney’s Office, Bureau of
                            Crime Laboratory              Investigations
                            Alameda County Sheriff’s
                                                          Alameda County Sheriff’s
                            Department, Crime
                                                          Department, Internal Affairs
                            Laboratory
                                                          Contra Costa County
                            Contra Costa County
                                                          Sheriff’s Department,
                            Sheriff’s Department,
                                                          Administrative Services
                            Forensic Services Division
                                                          Bureau
                                                          Los Angeles County Sheriff’s
                                                          Department, Internal
                            Los Angeles County            Criminal Investigations
                            Sheriff’s Department,         Bureau
                            Scientific Services Bureau    Los Angeles County Sheriff’s
                                                          Department, Internal Affairs
                                                          Bureau
                            Orange County Sheriff-        Orange County Sheriff-
                            Coroner Department,           Coroner Department,
                            Forensic Science Services     Internal Affairs
                            San Bernardino County
                                                          San Bernardino County
                            Sheriff Department,
                                                          Sheriff Department, Internal
                            Scientific Investigations
                                                          Affairs
                            Division
                            San Diego County Sheriff
                                                          San Diego County Sheriff
                            Department, Crime
                                                          Department, Internal Affairs
                            Laboratory
                            San Mateo County Sheriff’s    San Mateo County Sheriff’s
                            Department, Forensic          Department, Services
                            Laboratory                    Bureau
                            Ventura County Sheriff’s
                                                          Ventura County District
                            Department, Forensic
                                                          Attorney’s Office
                            Sciences Laboratory
                            El Cajon Police
                                                          El Cajon Police Department,
                            Department, Forensic
                                                          Internal Affairs
                            Laboratory
                                                          Long Beach Police
                            Long Beach Police             Department, Internal Affairs
                            Department, Crime             Long Beach Police
                            Laboratory                    Department, Detective
                                                          Division
______________________________________________________________________________________
U.S. Department of Justice                                                      21
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE               GOVERNMENT ENTITY
                            Los Angeles Police
                                                          Los Angeles Police
                            Department, Special
                                                          Department, Internal Affairs
                            Investigations Division
                            Oakland Police
                                                          Oakland Police Department,
                            Department, Criminalistics
                                                          Internal Affairs
                            Division
                            San Francisco Police          San Francisco Police
                            Department, Forensic          Department, Management
                            Services Division             Control Division
                            San Diego Police
                                                          San Diego Police
                            Department, Crime
                                                          Department, Internal Affairs
                            Laboratory
                            Colorado Bureau of
Colorado Division of                                      Colorado Attorney General’s
                            Investigation, Forensic
Criminal Justice                                          Office
                            Laboratory
                                                          Colorado Springs District
                            Colorado Springs Police       Attorney’s Office
City of Colorado Springs    Department, Metropolitan      Colorado Springs Police
                            Crime Laboratory              Department, Office of
                                                          Professional Standards
                            Connecticut State             Connecticut State Attorney
                            Department of Public          General’s Office
Connecticut Office of       Safety, Forensic Science      Connecticut Auditor of
Policy and Management       Laboratory                    Public Accounts
                            Office of the Chief Medical   Connecticut State Police,
                            Examiner                      Internal Affairs
                                                          Metropolitan Police
District of Columbia        Metropolitan Police
                                                          Department,
Justice Grants              Department, Firearms
                                                          Office of Professional
Administration              Examination Section
                                                          Responsibility
Delaware Criminal Justice                                 Delaware Attorney General’s
                            Medical Examiner’s Office
Council                                                   Office
                            Florida Department of Law     Florida Department of Law
                            Enforcement, Forensic         Enforcement, Executive
                            Services                      Investigation Section
                                                          Florida Medical Examiners
                            Florida Medical Examiners
                                                          Commission
                            Palm Beach County
                                                          Palm Beach County Sheriff’s
                            Sheriff’s Office, Technical
                                                          Office, Internal Affairs
                            Services Division
Florida Department of Law
                            Miami-Dade Police
Enforcement
                            Department, Crime Lab
                            Bureau                        Florida Department of Law
                            Broward County Regional       Enforcement, Forensic
                            Crime Laboratory              Services
                            Pinellas County Forensic
                            Laboratory
                            Indian River Crime            St. Lucie County Sheriff’s
                            Laboratory                    Office, Internal Affairs


______________________________________________________________________________________
U.S. Department of Justice                                                      22
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE                GOVERNMENT ENTITY
                                                           Hillsborough County Clerk
                            Hillsborough County            of the Circuit Court
Hillsborough County         Medical Examiner               Consumer Protection and
                            Department                     Professional Responsibility
                                                           Agency
                            North Miami Police             North Miami Police
City of North Miami         Department, Crime Scene        Department, Office of
                            Unit                           Professional Compliance
                            Miami Police Department,       Miami Police Department,
Miami Police Department     Crime Scene/Technical          Internal Affairs
                            Services Unit                  Civilian Investigative Panel
                                                           Gainesville Police
                            Gainesville Police
                                                           Department, Internal Affairs
City of Gainesville         Department, Forensics
                                                           Florida Department of Law
                            Laboratory
                                                           Enforcement
                            Georgia Bureau of              Georgia Bureau of
Georgia Criminal Justice
                            Investigation, Division of     Investigation, Office of
Coordinating Council
                            Forensic Sciences              Professional Standards
                            Cherokee County Sheriff’s      Cherokee County Sheriff’s
Cherokee County
                            Office                         Office, Internal Affairs
                            Guam Police Department,        Guam Police Department,
Guam Bureau of Planning
                            Crime Laboratory               Internal Affairs
                            Department of Public
                            Safety, Narcotics
Hawaii Department of the    Enforcement Division           Hawaii Department of the
Attorney General            City and County of             Attorney General
                            Honolulu, Department of
                            Medical Examiner
                            Iowa Department of Public
                                                           Iowa Department of Public
                            Safety, Division of Criminal
                                                           Safety, Professional
                            Investigation, Crime
                                                           Standards Bureau
                            Laboratory
                                                           Iowa Department of Public
                                                           Health, Iowa Office of State
Iowa Governor’s Office of
                                                           Medical Examiners,
Drug Control Policy
                                                           Forensic Operations
                            Iowa Department of Public
                                                           Iowa Office of Citizens’
                            Health, Medical Examiner’s
                                                           Aide/Ombudsman
                            Office
                                                           Iowa Department of Public
                                                           Safety, Division of Criminal
                                                           Investigation
                            Idaho State Police, Forensic   Idaho State Police, Office of
Idaho State Police
                            Services                       Professional Standards
                            Twin Falls County Central
Twin Falls County                                          Idaho State Police
                            Forensics Facility




______________________________________________________________________________________
U.S. Department of Justice                                                      23
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE               GOVERNMENT ENTITY
                            Illinois State Police,
                                                          Illinois Office of Executive
                            Division of Forensic
                                                          Inspector General
                            Services
                                                          Du Page County Sheriffs
Illinois Criminal Justice
                            Du Page County Crime          Department, Office of
Information Authority
                            Laboratory                    Professional Conduct and
                                                          Standards
                            Northeastern Illinois
                                                          Illinois Police Board
                            Regional Crime Laboratory
                            Indiana State Police
Indiana Criminal Justice    Forensic Laboratory           Indiana State Office of the
Institute                   Marion County Forensic        Inspector General
                            Agency
                                                          Sedgwick County District
                            Sedgwick County Forensic      Attorney’s Office
                            Science Laboratories          Sedgwick County
                                                          Counselor’s Office
                            Kansas Bureau of
                                                          Oklahoma State Bureau of
Office of the Governor of   Investigation, Forensic
                                                          Investigation
Kansas                      Science Laboratory
                                                          Johnson County Sheriff’s
                                                          Office, Professional
                            Johnson County Sheriff’s
                                                          Standards Unit
                            Office, Crime Laboratory
                                                          Kansas Attorney General’s
                                                          Office
                                                          Johnson County Sheriff’s
                                                          Office, Professional
                            Johnson County Sheriff’s
Johnson County                                            Standards Unit
                            Office, Crime Laboratory
                                                          Kansas Attorney General’s
                                                          Office
                                                          Sedgwick County District
Sedgwick County Forensic    Sedgwick County Forensic      Attorney’s Office
Science Laboratories        Science Laboratories          Sedgwick County
                                                          Counselor’s Office
                            Office of the Medical         Kentucky Cabinet Office of
                            Examiner                      Investigations
Kentucky Justice and                                      Kentucky Cabinet Office of
Safety Cabinet              Kentucky State Police,        Investigations
                            Forensic Laboratory           Kentucky State Police,
                                                          Internal Affairs




______________________________________________________________________________________
U.S. Department of Justice                                                      24
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                    SUB-GRANTEE               GOVERNMENT ENTITY
                             North Louisiana Crime
                             Laboratory System
                             Louisiana State Police,
                             Crime Laboratory
                             Acadiana Crime Laboratory
Louisiana Commission on      New Orleans Police            Louisiana Attorney
Law Enforcement              Department, Crime             General’s Office
                             Laboratory
                             Jefferson Parish Sheriff’s
                             Office, Crime Laboratory
                             Southwest Louisiana Crime
                             Laboratory
                                                           Massachusetts Attorney
                                                           General’s Office
                             Boston Police Department
                                                           Massachusetts Office of the
                                                           Inspector General
Massachusetts State Police
                                                           Massachusetts Attorney
                                                           General’s Office
                             Massachusetts State Police
                                                           Massachusetts Office of the
                                                           Inspector General
                                                           Maryland Forensic Sciences
                             Anne Arundel County           Advisory Board
                             Crime Laboratory              Anne Arundel County Police
                                                           Department, Internal Affairs
                             Office of the Chief Medical   Maryland Forensic Sciences
                             Examiner                      Advisory Board
                                                           Maryland Forensic Sciences
                             Maryland State Police,
                                                           Advisory Board
Governor’s Office of Crime   Computer Forensic
                                                           Maryland State Police,
Control                      Laboratory
                                                           Internal Affairs
And Prevention
                                                           Maryland Forensic Sciences
                             Baltimore City Police,        Advisory Board
                             Crime Laboratory              Baltimore City Police
                                                           Department, Internal Affairs
                                                           Maryland Forensic Sciences
                             Baltimore County Police       Advisory Board
                             Department                    Baltimore County Police
                                                           Department, Internal Affairs
                             City of Baltimore Police
                                                           Maryland State Police,
City of Baltimore            Department, Crime
                                                           Crime Laboratory
                             Laboratory
                                                           Anne Arundel County Police
                             Anne Arundel County
                                                           Department, Internal Affairs
Anne Arundel County          Police Department, Crime
                                                           Baltimore County Crime
                             Laboratory
                                                           Laboratory




______________________________________________________________________________________
U.S. Department of Justice                                                      25
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                      SUB-GRANTEE              GOVERNMENT ENTITY

                              Office of the Attorney        Maine Office of the Attorney
                              General, Chief Medical        General
                              Examiner’s Office             Maine State Police
Maine Department of           Department of Public
Public Safety                 Safety, Maine State Police,
                              Crime Laboratory              Maine Office of the Attorney
                              Department of Human           General
                              Services, Public Health
                              Laboratory
                                                            Michigan State Police,
                              Michigan State Police,        Internal Affairs
Michigan Office of Drug       Forensic Science Division     Michigan State Attorney
Control Policy                                              General’s Office
                              Detroit Police Department,    Detroit Police Department,
                              Crime Laboratory              Internal Affairs
                              Minnesota Department of
                                                            Minnesota Department of
                              Public Safety, Bureau of
                                                            Public Safety, Internal
Minnesota Department of       Criminal Apprehension
                                                            Affairs
Public Safety                 Laboratories
                              Hennepin County Sheriff’s     Hennepin County Sheriff’s
                              Office, Crime Laboratory      Office, Internal Affairs
                              Minneapolis Police
                                                            Minnesota Bureau of
City of Minneapolis           Department, Crime
                                                            Criminal Apprehension
                              Laboratory
                              St. Louis Metropolitan
St. Louis Metropolitan                                      Missouri State Highway
                              Police Department,
Police Department                                           Patrol, Crime Laboratory
                              Forensic Laboratory
Missouri Department of                                      Missouri State Highway
                              None
Public Safety                                               Patrol, Crime Laboratory
                                                            Mississippi Bureau of
Mississippi Division of       Mississippi Crime             Investigation, Internal
Public Safety Planning        Laboratory                    Affairs
                                                            Mississippi Highway Patrol
                              Montana Department of
Montana Board of Crime                                      Montana Forensic Science
                              Justice, Forensic Science
Control                                                     Laboratory Advisory Board
                              Laboratory
                              Office of the Chief Medical
                              Examiner
North Carolina                                              North Carolina State
                              Charlotte-Mecklenburg
Department of Crime                                         Bureau of Investigation
                              Police Department, Crime
Control And Public Safety -
                              Laboratory
The Governor’s Crime
                              North Carolina State          North Carolina Bureau of
Commission
                              Bureau of Investigation,      Investigation, Professional
                              Crime Laboratory              Standards Division
                              North Dakota Office of        North Dakota Office of
North Dakota Office of
                              Attorney General, Crime       Attorney General, Bureau of
Attorney General
                              Laboratory Division           Criminal Investigation




______________________________________________________________________________________
U.S. Department of Justice                                                      26
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE               GOVERNMENT ENTITY
                            Nebraska State Patrol,
                            Crime Laboratory
                                                          Nebraska Attorney General’s
Nebraska State Patrol       University of Nebraska
                                                          Office
                            Medical Center, Human
                            DNA Identification
                            State Medical Examiner’s
                                                          New Hampshire State Police
                            Office
New Hampshire
                                                          New Hampshire Department
Department of Justice       New Hampshire State
                                                          of Justice, Public Integrity
                            Police, Forensic Laboratory
                                                          Unit
                            New Jersey Regional           Federal Bureau of
                            Forensics Laboratory          Investigation
                                                          Union Police Department,
                            Union County Laboratory
                                                          Internal Affairs
                            Burlington County             Burlington County
                            Laboratory                    Prosecutor’s Office
                                                          Cape May County
                            Cape May County
                                                          Prosecutor’s Office, Internal
                            Laboratory
                                                          Affairs
                            Essex County Ballistics       Essex County Police
                            Laboratory                    Department, Internal Affairs
                            Bergen County Ballistics      Bergen County Sheriff’s
                            Laboratory                    Office, Internal Affairs
                                                          Somerset County
                            Somerset County Ballistics
                                                          Prosecutor’s Office, Internal
                            Laboratory
                                                          Affairs
                            Morris County Sheriff’s       Morris County Sheriff’s
                            Office                        Office, Internal Affairs
                            Hudson County
                                                          New Jersey State Police,
                            Prosecutor’s Office,
New Jersey Department of                                  Office of Forensic Sciences
                            Laboratory
Law and Public Safety
                                                          Ocean County Prosecutor’s
                            Ocean County Laboratory
                                                          Office
                              Newark Police Department    Newark Police Department,
                              Laboratory                  Internal Affairs
                              Bergen County Medical       Bergen County Prosecutor’s
                              Examiner’s Office           Office
                              Middlesex County Medical    Middlesex County
                              Examiner’s Office           Prosecutor’s Office
                              Northern Region Medical
                              Examiner’s Office
                              Southern Region Medical
                              Examiner’s Office           New Jersey State Medical
                              Atlantic County Medical     Examiner’s Office
                              Examiner’s Office
                              Monmouth County Medical
                              Examiner’s Office
                              New Jersey State Police,
                                                          New Jersey State Police,
                              Anthropology Laboratory
                                                          Office of Professional
                              New Jersey State Police,
                                                          Standards
                              Firearms Laboratory
______________________________________________________________________________________
U.S. Department of Justice                                                       27
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                    SUB-GRANTEE                GOVERNMENT ENTITY
                                                            Office of the Medical
                             Office of the Medical          Investigator Board
                             Investigator                   University of New Mexico
                                                            Police Department
New Mexico Department of
                             Albuquerque Police
Public Safety                                               Albuquerque Police
                             Department, Crime
                                                            Department, Internal Affairs
                             Laboratory
                             Department of Public           New Mexico State Police,
                             Safety, Forensic Laboratory    Standards Bureau
                             Broome County, Security        Broome County, Security
                             Division, Computer             Division
Broome County
                             Analysis and Technical         Broome County District
                             Services Laboratory            Attorney’s Office
                             Erie County Department of
                             Central Police Services,
                             Forensic Laboratory
                             Monroe County Public
                             Safety Laboratory
                             Monroe County Office of
                             the Medical Examiner,
                             Forensic Toxicology
                             Laboratory
                             Nassau County Police
                             Department, Laboratory
                             New York City Office of the
                             Chief Medical Examiner
                             New York State Police,
                             Forensic Investigation
                             Center
                             Niagara County Sheriff’s
New York State Division of   Department, Forensic           New York State Commission
Criminal Justice Services    Laboratory                     of Investigation
                             Onondaga County Center
                             for Forensic Sciences
                             Suffolk County Crime
                             Laboratory
                             Suffolk County Office of the
                             Chief Medical Examiner,
                             Toxicology Laboratory
                             Westchester County
                             Department of Laboratories
                             & Research, Forensic
                             Science Laboratory
                             Westchester County Office
                             of the Chief Medical
                             Examiner
                             Westchester County
                             Department of Public
                             Safety, Crime Laboratory

______________________________________________________________________________________
U.S. Department of Justice                                                      28
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE               GOVERNMENT ENTITY
                            Nassau County Medical
                                                          New York State Commission
Nassau County               Examiner’s Forensic
                                                          of Investigation
                            Toxicology Laboratory
                            Westchester County
                            Department of Laboratories
                                                          New York State Commission
County of Westchester       and Research, Division of
                                                          of Investigation
                            Forensic Sciences, Trace
                            Evidence Section
                                                          Monroe County District
                            Monroe County Office of       Attorney’s Office
Monroe County
                            the Medical Examiner          Monroe County Law
                                                          Department
                                                          New York State Attorney
                                                          General’s Office
                            Utica Police Department,      Oneida County District
City of Utica
                            Identification Unit           Attorney’s Office
                                                          Utica Police Department,
                                                          Professional Standards Unit
                                                          Ohio Attorney General’s
Ohio Office of Criminal
                                                          Office, Bureau of Criminal
Justice Services
                                                          Investigation
                            Cuyahoga County
                                                          Cuyahoga County
                            Coroner’s Office
                                                          Prosecutor’s Office
                                                          Cuyahoga County Sheriff’s
                                                          Office
                                                          Ohio Attorney General’s
                            Columbus Police               Office, Bureau of Criminal
                            Department, Crime             Investigation
                            Laboratory                    Columbus Police
                                                          Department, Internal Affairs
                                                          Ohio Attorney General’s
                                                          Office, Bureau of Criminal
                                                          Investigation
                                                          Cuyahoga County Coroner’s
                            Franklin County Coroner’s
                                                          Office
                            Office
                                                          Hamilton County Coroner’s
                                                          Office
                                                          Ohio State Highway Patrol,
                                                          Crime Laboratory
                                                          Ohio Attorney General’s
                                                          Office, Bureau of Criminal
                                                          Investigation
                            Hamilton County Coroner’s
                                                          Hamilton County
                            Office, Crime Laboratory
                                                          Prosecutor’s Office
                                                          Hamilton County Sheriff’s
                                                          Office
                                                          Ohio Attorney General’s
                            Lake County Regional          Office, Bureau of Criminal
                            Forensic Laboratory           Investigation
                                                          Lake County Sheriff’s Office
______________________________________________________________________________________
U.S. Department of Justice                                                      29
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE                GOVERNMENT ENTITY
                                                           Ohio Attorney General’s
                                                           Office, Bureau of Criminal
                            State Fire Marshal’s Office,
                                                           Investigation
                            Forensic Laboratory
                                                           Ohio Department of
                                                           Commerce, Legal Counsel
                                                           Ohio Attorney General’s
                            Bureau of Criminal             Office, Bureau of Criminal
                            Identification, Central        Investigation
                            Crime Laboratory               Ohio State Highway Patrol,
                                                           Crime Laboratory
                                                           Ohio Attorney General’s
                                                           Office, Bureau of Criminal
                                                           Investigation
                            Ohio State Highway Patrol,
                                                           Lake County Crime
                            Crime Laboratory
                                                           Laboratory
                                                           Miami Valley Regional
                                                           Crime Laboratory
                                                           Ohio Attorney General’s
                                                           Office, Bureau of Criminal
                            Miami Valley Regional          Investigation
                            Crime Laboratory               Montgomery County
                                                           Sheriff’s Office
                                                           Ohio Ethics Commission
                            Cleveland Division of          Cuyahoga County
City of Cleveland
                            Police, Forensic Laboratory    Prosecutor’s Office
                            Ardmore Police Department
                            Broken Arrow Police
                            Department
                            Office of the Chief Medical    Oklahoma State Bureau of
Oklahoma District           Examiner                       Investigation
Attorneys Council           Oklahoma County District
                            Attorney’s Office
                            Tulsa Police Department
                            Oklahoma State Bureau of       Kansas Bureau of
                            Investigation                  Investigation
                            Oregon Department of           Oregon Department of State
Oregon Department of
                            State Police, Forensic         Police, Office of Professional
State Police
                            Services Division              Standards
                            Lane County Medical            Lane County District
Lane County
                            Examiner                       Attorney’s Office
                                                           Oregon State Police
                            Northwest Regional             Oregon Attorney General’s
City of Hillsboro           Computer Forensics             Office
                            Laboratory                     Federal Bureau of
                                                           Investigation




______________________________________________________________________________________
U.S. Department of Justice                                                      30
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                     SUB-GRANTEE             GOVERNMENT ENTITY
                             Cumberland County
                                                          Pennsylvania Attorney
                             Computer Forensic
                                                          General’s Office
                             Laboratory
                                                          Dauphin County District
                             Dauphin County Coroner
                                                          Attorney’s Office
                             Berks County Forensic        Pennsylvania State Police,
Pennsylvania Commission      Laboratory                   Internal Affairs
On Crime And                                              Pennsylvania State Police,
                             Pennsylvania State Police
Delinquency                                               Internal Affairs
                             Lehigh County Coroner’s      Lehigh County District
                             Office                       Attorney’s Office
                             York County Coroner’s        York County District
                             Office                       Attorney’s Office
                             Allegheny County Coroner’s   Allegheny County Police
                             Office                       Department
                                                          Government Ethics Office
Instituto de Ciencias                                     Comptroller of Puerto Rico
Forenses de Puerto Rico                                   Puerto Rico Department of
                             None
(Puerto Rico Forensic                                     Justice
Sciences Institute)                                       Federal Bureau of
                                                          Investigation
                             Rhode Island State Crime
                             Lab
Rhode Island Justice                                      Rhode Island Department of
                             Department of Health,
Commission                                                the Attorney General
                             Forensic Science
                             Laboratory
                             Columbia Police
                             Department
                             Hartsville Police
South Carolina
                             Department                   South Carolina State Law
Department of Public
                             Spartanburg Public Safety    Enforcement Division
Safety
                             Department
                             Richland County Sheriff’s
                             Office
                                                          North Dakota Attorney
                                                          General, Division of
South Dakota Office of The   South Dakota Forensic
                                                          Criminal Investigation
Attorney General             Laboratory
                                                          Minnehaha County Sheriff’s
                                                          Office
                             Rapid City Police
                                                          South Dakota Attorney
City of Rapid City           Department, Crime
                                                          General’s Office
                             Laboratory
                                                          Tennessee State Comptroller
                             Tennessee Bureau of
                                                          Tennessee State Attorney
                             Investigation
Tennessee Department of                                   General
Finance and                                               Tennessee Bureau of
Administration               Tennessee Medical            Investigation
                             Examiner’s Office            Tennessee Medical
                                                          Examiner’s Board


______________________________________________________________________________________
U.S. Department of Justice                                                      31
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE               GOVERNMENT ENTITY
                                                          Texas Department of Public
                                                          Safety
                                                          Texas Forensic Science
                              Southwestern Institute of   Commission
Dallas County
                              Forensic Sciences           Dallas County District
                                                          Attorney’s Office
                                                          Dallas County Sheriff’s
                                                          Office
                                                          Tarrant County District
                              Forth Worth Police          Attorney’s Office
City of Fort Worth            Department, Crime           Texas Department of Public
                              Laboratory                  Safety, Crime Laboratory
                                                          Service
                                                          Houston Police Department,
                                                          Internal Affairs
                              Houston Police
                                                          Houston Office of the
City of Houston               Department, Identification
                                                          Inspector General
                              Division
                                                          Texas Forensic Science
                                                          Commission
                                                          Texas Department of Public
                                                          Safety, Crime Laboratory
                              Texas Department of Public
                                                          Service
                              Safety
                                                          Texas Forensic Science
                                                          Commission
                                                          Texas Department of Public
                                                          Safety, Crime Laboratory
                              City of Austin              Service
                                                          Texas Forensic Science
                                                          Commission
                                                          Texas Department of Public
                                                          Safety, Crime Laboratory
                              Jefferson County            Service
                                                          Texas Forensic Science
Texas Office of the
                                                          Commission
Governor, Criminal Justice
                                                          Texas Department of Public
Division
                                                          Safety, Crime Laboratory
                              Harris County               Service
                                                          Texas Forensic Science
                                                          Commission
                                                          Texas Department of Public
                                                          Safety, Crime Laboratory
                              City of Houston             Service
                                                          Texas Forensic Science
                                                          Commission
                                                          Texas Department of Public
                                                          Safety, Crime Laboratory
                              City of Pasadena            Service
                                                          Texas Forensic Science
                                                          Commission
                              Austin Police Department,   Texas Department of Public
City of Austin
                              Forensics Laboratory        Safety
______________________________________________________________________________________
U.S. Department of Justice                                                      32
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE               GOVERNMENT ENTITY
                                                          Jefferson County Sheriff’s
                            Jefferson County Regional     Department, Internal Affairs
Jefferson County
                            Crime Laboratory              Texas Forensic Science
                                                          Commission
                                                          Utah Attorney General’s
                                                          Office, Investigations
                                                          Division
                            Toole City Police
City of Tooele                                            Utah Department of Public
                            Department
                                                          Safety
                                                          Utah State Crime
                                                          Laboratory
Utah Department of Public   Utah State Crime              Utah Attorney General’s
Safety                      Laboratory                    Office
                                                          Virginia Forensic Science
                            Department of Forensic        Board
                            Science                       Virginia Scientific Advisory
                                                          Committee
                                                          Virginia Attorney General’s
Virginia Department of
                                                          Office
Criminal Justice Services
                                                          Virginia Department of
                            Medical Examiner’s Office     Health Professions
                                                          Virginia State Police
                                                          Virginia Office of the
                                                          Inspector General
                            Fairfax County Police
Fairfax County Police       Department, Criminal          Fairfax County Police
Department                  Intelligence Division,        Department, Internal Affairs
                            Computer Forensic Section
                            Virgin Islands Department
Virgin Islands Bureau of                                  Office of the Virgin Islands
                            of Justice, Office of the
Corrections                                               Inspector General
                            Attorney General
                                                          Vermont State Police
                                                          Vermont Attorney General’s
                                                          Office
                            Office of the Chief Medical
                                                          Vermont Department of
                            Examiner
                                                          Human Resources
Vermont Department of                                     Vermont State Agency of
Public Safety                                             Human Services
                                                          Vermont Attorney General’s
                            Vermont Department of         Office
                            Public Safety, Forensic       Vermont State Police
                            Laboratory                    Vermont Department of
                                                          Human Resources
                            Medical Examiner’s Office
Spokane County Board of                                   Washington State Forensic
                            Spokane County Sheriff’s
Commissioners                                             Investigation Council
                            Office, Forensic Unit
Washington Department of
                            Washington State              Washington State Forensic
Community, Trade, &
                            Toxicological Laboratory      Investigation Council
Economic Development


______________________________________________________________________________________
U.S. Department of Justice                                                      33
Office of the Inspector General
Evaluation and Inspections Division
        GRANTEE                   SUB-GRANTEE               GOVERNMENT ENTITY
                                                          Wisconsin State Laboratory
                            Kenosha County Division of    of Hygiene
                            Health, Laboratory            Wisconsin Department of
                                                          Justice
Kenosha County
                                                          Wisconsin State Laboratory
                            Kenosha County Medical        of Hygiene
                            Examiner’s Office             Wisconsin Department of
                                                          Justice
                                                          Wisconsin Department of
Wisconsin Department of     Milwaukee Medical
                                                          Justice, Division of Criminal
Justice                     Examiner’s Office
                                                          Investigation
West Virginia Division of   West Virginia State Police,   West Virginia Commission
Criminal Justice Services   Forensic Laboratory           on Special Investigations
                                                          Wyoming Office of the
Wyoming Office of the       Wyoming State Crime
                                                          Attorney General, Criminal
Attorney General            Laboratory
                                                          Investigations Division




______________________________________________________________________________________
U.S. Department of Justice                                                      34
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX III: THE OFFICE OF JUSTICE PROGRAMS RESPONSE




______________________________________________________________________________________
U.S. Department of Justice                                                      35
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      36
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      37
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      38
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      39
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      40
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX IV: OIG’S ANALYSIS OF THE OFFICE OF JUSTICE
                    PROGRAMS RESPONSE


       On November 5, 2007, the Office of the Inspector General (OIG)
sent a copy of the draft report to the Department of Justice’s
(Department) Office of Justice Programs (OJP) with a request for written
comments. On January 9, 2008, the OIG met with OJP and received
verbal comments, some of which we incorporated into the draft report.
On January 14, 2008, OJP provided its final written response to the draft
report in which it disagreed with the OIG’s conclusion that OJP’s
administration of the Coverdell Program external investigation
certification requirement is not effective for ensuring that allegations of
serious negligence or misconduct are subject to independent external
investigations. In addition, OJP concurred with two of the OIG’s three
recommendations and disagreed with one.

      In essence, OJP’s position was that the Coverdell Program statute
required only a certification from the grantee, that OJP had complied
with this requirement, and that therefore its oversight of the requirement
was not deficient.

        We disagree with OJP’s narrow view of its responsibilities in
administering this important grant program. We believe that OJP’s
responsibility extends beyond the bare minimum of compliance with the
literal terms of the statute. Rather, OJP has a responsibility to ensure
that the required certifications are meaningful and that grantees actually
have the means and intention to follow through on their certifications
should an allegation of serious negligence or misconduct arise. This is
especially true when, as our reviews have identified, the certifications
from current grant recipients are incomplete and inaccurate, and when
the entities certified by the grantees report that they do not meet the
certification requirement. In short, OJP has a responsibility to monitor
and oversee the grant program, which includes ensuring that the
grantees’ certifications are correct. As we discuss in this analysis of
OJP’s response, we believe that OJP’s actions, and its response, take an
inappropriately limited view of its responsibilities and attempt to shift
responsibility for the deficiencies in the administration of the Coverdell
Program to others.

      The following sections summarize and analyze the main points of
OJP’s response to the report findings and recommendations.



______________________________________________________________________________________
U.S. Department of Justice                                                      41
Office of the Inspector General
Evaluation and Inspections Division
SUMMARY AND OIG ANALYSIS OF OJP RESPONSE

OJP’s Comments on the OIG Report

       OJP Administration. After introductory comments, the OJP
response states that “(t)he Coverdell Program has been administered
successfully for several years” and lists examples of program
management activities that OJP has in place to administer the program.
These include applying special conditions, peer review of applications,
collecting performance data, monitoring grantees through the Grants
Program Assessment program, and requiring that applicants name the
government entity they certify meets the external investigation
certification requirement. OJP also states its commitment to improving
forensic science.

       OIG Analysis. While the OIG did not review every aspect of OJP’s
administration of the Coverdell Program, our review found that OJP’s
administration of the external investigation certification requirement was
not effective. For example, as we describe in this report and in our
December 2005 report, OJP failed to provide adequate instruction to
grant applicants; failed to require applicants confirm to OJP to that
applicants identified entities capable of conducting independent external
investigations of wrongdoing; did not effectively review the certifications
to ensure that they were completed accurately; and provided
questionable guidance to an inquiry from a grantee regarding whether
forensic laboratories are expected to refer allegations of serious
wrongdoing for independent investigation. Moreover, as we will describe
in later sections, OJP manifests a continuing unwillingness to act upon
information that should alert it that, notwithstanding the certifications it
collects, many grantees and sub-grantees lack the processes for having
serious allegations of wrongdoing independently investigated.
Consequently, we disagree with OJP’s assertions that it has successfully
administered the Coverdell Program.

       Statutory Requirements. OJP next contends that it has complied
with the Justice for All Act’s requirements because it collected the
certifications called for by the Act. OJP raises two questions related to
this point. According to OJP, “With respect to the external investigation
certification requirement of the Coverdell statute, one question is
whether OJP has complied with the statutory requirement by obtaining
external investigation certificates from applicants.” The second question
OJP poses is “…whether the statutory requirement itself is effective to
accomplish what appear to be its intended purposes.”


______________________________________________________________________________________
U.S. Department of Justice                                                      42
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis. Regarding the first “question,” the OIG has not and
does not question whether OJP has complied with the minimum
statutory requirement to collect certification forms. We acknowledge that
OJP has complied with the terms of the statute by collecting these
certifications. However, we disagree that OJP has fully and effectively
discharged its duties to effectively manage the program merely by
collecting the forms or that OJP’s responsibility is properly limited to
strict compliance with the bare minimum statutory requirement.

      Because the OIG believes that the certification must have meaning
beyond the mere collection of a signed statement, we obtained the
FY 2006 certifications from OJP in order to review whether the grantees
actually certified government entities that were capable of conducting
independent investigations. As we detailed in this report, many were not.
We find OJP’s often-stated position that it has fulfilled its duty to
administer the Coverdell Program’s external investigation certification
requirement merely by collecting certification forms is troubling.

       Regarding the second “question,” we believe it is inappropriate for
OJP to shift responsibility for the problems our review identified with its
administration of the Coverdell Program to Congress. In its discussion of
this second “question,” OJP asserts that because Congress did not give
specific direction beyond requiring the collection of the certifications:

       OJP’s proper administration of the statute therefore
       may not be sufficient to achieve the policy objective.
       Failure to achieve a policy objective not incorporated
       into the statute, however, is not something for which
       OJP should be held responsible.

We could not disagree more. The language Congress included in the Act
makes clear that federal funding to improve forensic laboratories was to
be granted to applicants that have in place established processes to
conduct independent investigations into allegations of serious
wrongdoing. This is the clear policy objective of the certification
requirement. As the responsible federal agency, OJP must develop the
mechanisms to effectively implement the legislation and to enforce the
law in a meaningful way. Commensurately, we believe that the statutory
directive to collect certifications must have meaning beyond the mere act
of collecting signed certifications.

      Referrals of allegations. OJP also provides comments regarding the
lack of any specific statutory directive that grantees actually refer
allegations of wrongdoing for investigation by the certified entity. In its
discussion of the quality of the statute, OJP states that “while OJP
______________________________________________________________________________________
U.S. Department of Justice                                                      43
Office of the Inspector General
Evaluation and Inspections Division
certainly agrees that such referrals are consonant with the external
investigation certification requirement, the statute itself imposes no
requirement for referrals.” In the next paragraph of its response, OJP
states it is not surprised that the OIG identified cases in which forensic
laboratories conducted their own investigations of wrongdoing because
“[t]he Coverdell Program statute does require a government entity with an
appropriate process in place to conduct independent external
investigations. It does not require that every possible allegation be
referred to that entity for investigation….”

       OIG Analysis. In our view, OJP’s position again demonstrates an
inadequate appreciation of its responsibilities. Because the statute does
not explicitly state that OJP should provide guidance regarding referrals,
OJP apparently does not believe it has any obligation to do so. Yet, as
the administrator of the grant program OJP is responsible for providing
applicants with appropriate guidance on a variety of issues, which we
believe includes informing grantees that – consistent with their
certifications – allegations of serious negligence or misconduct
substantially affecting the integrity of forensic results should be referred
for review or investigation to the government entities they have identified.
We believe that without such guidance the certification has little meaning
and Congress’ clear intent in requiring grantees to identify a government
entity to independently investigate allegations is thwarted.

       Certifications from individuals not in the applicant agency. OJP
next addresses the OIG’s observation that 38 grantees submitted
certifications that were signed by individuals who did not appear to
represent the applicant agency. OJP states that it reviewed a list of the
38 questionable certifications, and that it appeared that “many were
signed by individuals who (even if not officers or employees of the
government agency) appeared to have the appropriate authority to sign
the certification with respect to that agency.” [Emphasis in original] OJP
acknowledges that some grantees submitted certifications from forensic
laboratories instead of from the agency applying for the grant, and states
that in the future such certifications will not be accepted in lieu of
certifications from the grantees. However, OJP adds that, while these
certifications were “insufficient under the law, [the certifications] honored
much of its apparent intent.”

      OIG Analysis. As stated in the external investigation certification
template issued by OJP, the certifications are required to be signed by an
individual authorized to make the certification on behalf of the applicant
agency. The OIG agrees that certifications signed by individuals who are
in a position of authority to sign on behalf of an applicant agency, even if
the individuals are not from the applicant agency, are acceptable.
______________________________________________________________________________________
U.S. Department of Justice                                                      44
Office of the Inspector General
Evaluation and Inspections Division
However, the 38 certifications we questioned were signed by individuals
who did not appear to be from the applicant agency and who were not
clearly in a position of authority over the applicant agency. For example,
OJP’s response confirms that some of the certifications were from sub-
grantees and were therefore not sufficient. Clearly, sub-grantees have no
authority over the grantee. We also believe that OJP’s decision not to
approve applications that contain certifications only from sub-grantees
recognizes this point and is a step in the right direction.

      Responsibility for addressing potentially false certifications. OJP
next comments that “language in the OIG draft report suggests that the
OIG may have concerns as to whether certain certifications submitted in
FY 2006 were false.” OJP further states that false certifications are a
matter of “grave concern” to it. OJP states that it is not aware of which
applicants or officials may be involved, but if it is made aware of
potentially false certifications it will ask the OIG to investigate the
matter.

       OIG Analysis. OJP mischaracterizes the OIG’s concern. The OIG’s
concern is that the problems we identified in the FY 2005 and FY 2006
Coverdell Program provide strong indications that OJP’s administration
of the external investigation certification requirement is inadequate to
prevent and identify improper or insufficient certifications. For example,
the guidance provided by OJP did not require that applicants confirm to
OJP that they had identified entities capable of conducting independent
external investigations of wrongdoing. Further, OJP did not effectively
review the certifications to ensure that they were accurately completed or
that on their face they did not indicate deficiencies. We remain
concerned that OJP’s failure to improve its administration leaves open
the potential for it to accept invalid certifications.

       In addition, the OIG is concerned that the OJP response attempts
to shift the responsibility for assuring the validity of grantees’
certifications to the OIG, stating that if OJP “should become aware of
specific facts concerning false certifications, the OIG will be asked to
conduct an appropriate investigation into the matter.” While the OIG has
the authority to review all activities of Department components or
grantees, our primary focus is on improving the management of the
Department. OJP has the primary responsibility for administering grant
programs effectively to ensure the grantees comply with grant
requirements. It is not the OIG’s responsibility to review the
certifications on an ongoing basis – it is OJP’s responsibility. Yet,
because of OJP’s resistance to acting on the problems uncovered in our
December 2005 report and our resulting recommendations, the OIG
believed it necessary to conduct this follow-up review. And,
______________________________________________________________________________________
U.S. Department of Justice                                                      45
Office of the Inspector General
Evaluation and Inspections Division
notwithstanding that we again found strong indications that OJP’s
processes are often inadequate to ensure independent external
investigations into allegations of serious wrongdoing in forensic
laboratories, OJP’s response indicates that it remains reluctant to fulfill
its responsibilities to administer the statute in a meaningful way.

OJP’s Additional Clarifications

      In addition to the general comments discussed above, OJP
provided several “Additional Clarifications” regarding certain statements
in the OIG report. Each of OJP’s clarifications is discussed below.

       OIG legal assessment. OJP states that, in discussing the
December 2005 report, it is appropriate to note that the OIG’s General
Counsel agreed with OJP that “…section 3797k(4) is satisfied as a legal
matter when OJP receives a basic certification from an applicant that
replicates the language of section 3797k(4) and that OJP’s certification
practices have been in full compliance with the legal requirements of
section 3797k(4).”

       OIG Analysis. OJP’s representation of the OIG General Counsel’s
statement is correct, but again misses the point. As we described earlier,
although our report acknowledges that OJP has complied with the
minimum terms of the statute requirement by collecting the certifications
from applicants, we believe that this is an overly narrow reading of OJP’s
responsibility as the administrator of the Coverdell Program. Rather
than focus on whether it has complied with the minimum required, OJP
should be concerned with taking the steps necessary to ensure that the
certifications it collects are accurate and meaningful.

       Meaning of “certified entities.” OJP states that it is important to
clarify that the FY 2006 certification form did not request the name of the
government entity. OJP also states that the OIG uses the terms “certified
entities” and “entities certified” not to refer to entities identified in the
certifications, but to entities identified after the fact to the OIG by
individuals who may or may not have signed the certifications submitted
to OJP.

       OIG Analysis. The OIG report is clear in stating that the names of
the entities were not included on the FY 2006 Coverdell Program
certifications. Indeed, a primary purpose of this review was to identify
the government agencies that the certifying officials had in mind when
they signed the certifications because OJP failed to obtain that
information in the first instance. The majority of individuals we
contacted were the individuals who signed the certifications.
______________________________________________________________________________________
U.S. Department of Justice                                                      46
Office of the Inspector General
Evaluation and Inspections Division
      Appropriate processes. OJP states that, with respect to 43 entities
the OIG found lacked appropriate processes, “the certification basis of
the Coverdell statute…is [that] the applicant State or unit of local
government…must determine if the process in place is appropriate.”

       OIG Analysis. The OIG agrees that the applicants have the
primary responsibility for determining that the entities they certify have
in place appropriate processes to investigate allegations of serious
wrongdoing in forensic laboratories. Yet, when we contacted the entities
identified to us by the certifying officials, many told us that they did not
have appropriate processes for conducting the investigations called for in
the Coverdell Program. In other cases, we found that the forensic
laboratory exercised control over the investigation – such as by granting
the authority for the entity to conduct investigations on a case-by-case
basis – that effectively undermined the independence of the investigative
process. OJP’s statement again appears to ignore its responsibilities as
the grant administrator. We concluded that OJP’s administration must
be improved to ensure that the applicants fulfill their responsibility to
ensure appropriate processes are in place.

       Certifying officials notice to government entities. Regarding the
OIG’s reporting that certifying officials often did not discuss or notify the
entities about the external investigation certification, OJP states that the
statute does not require that certifying officials discuss the certification
with a government entity representative.

       OIG Analysis. In assessing the certifications submitted by
applicants, the OIG contacted the entities that the certifying officials told
us they had in mind when they signed the certifications. In many cases,
the entities were unaware that they had been identified as having a
process in place to conduct independent investigations of wrongdoing in
forensic laboratories. However, some of these entities also told us that
they did not have the capability or authority to conduct such
investigations. While it may not be explicitly required in the statute,
OJP’s encouragement of communication between the applicants and the
entities they certify would help ensure that applicants certify government
entities that have the authority, a process in place, and the capability
and resources to conduct independent external investigations of the
forensic laboratories that will receive Coverdell Program funds. We do
not believe that OJP should wait – or require the Congress to direct them
in a statute – to take appropriate steps to administer the program.



______________________________________________________________________________________
U.S. Department of Justice                                                      47
Office of the Inspector General
Evaluation and Inspections Division
       FY 2006 grant application instructions. OJP notes that in its
FY 2006 solicitation it not only required applicants to submit a
certification using the template, but also advised the applicants that they
were “expected to review the requirement of [the] certification carefully
before determining whether the certification properly can be made.”
Further, OJP states, the applicants were notified that the certification
must be executed by an official familiar with the certification
requirements and authorized to make certifications on behalf of the
applicant agency.

      OIG Analysis. The OIG does not dispute that the cited language
was included in the Coverdell Program announcement. Our concern
remains, however, that OJP’s overall administration of the Coverdell
Program external investigation certification requirement was insufficient
to ensure that applicants actually identified entities capable of
conducting independent external investigations of wrongdoing in forensic
laboratories.

OJP RESPONSE TO OIG RECOMMENDATIONS

      Recommendation 1. Revise the certification template to require
that applicants name the government entities and confirm that the
government entities have:

              a. the authority,
              b. the independence,
              c. a process in place that excludes laboratory management,
                 and
              d. the resources

to conduct independent external investigations into allegations of serious
negligence or misconduct by the forensic laboratories that will receive
Coverdell Program funds.

       Status. Unresolved – open

      Summary of the OJP Response. OJP did not concur with the
OIG’s recommendation to revise the certification form to include
additional language. OJP stated that it will continue to require that
applicants name the government entity or entities to prior to receiving
funds and will modify the certification form to include two new
statements. However, OJP does not agree that the statements the OIG
recommended are necessary, and states that it [OJP] “is reluctant to
impose eligibility requirements other than those contained in the
statute.” OJP concludes that “to the extent that significantly stricter
______________________________________________________________________________________
U.S. Department of Justice                                                      48
Office of the Inspector General
Evaluation and Inspections Division
eligibility requirements would further policy objectives that appear to
underlie the statute, OJP believes the matter is properly left to the
legislative process.”

       OIG Analysis. The OIG does not accept OJP’s reasoning. The
additional language recommended by the OIG would not establish any
new eligibility requirements for the Coverdell Program. Any entity that
meets the certification requirement must have the authority,
independence, processes, and resources to conduct investigations into
allegations of serious wrongdoing at forensic laboratories. The
modifications we propose would only have the applicants specifically
confirm to OJP that the entities they certify meet these qualifications.
Such a certification is needed because, as we have described throughout
this report, the OIG identified repeated instances in which OJP’s
administration of the certification requirement was ineffective to ensure
that grantees certified appropriate entities. Finally, we disagree with
OJP’s assertion that Congress must dictate exactly what the certification
must contain or specifically direct OJP how to effectively administer the
Coverdell Program.

       To resolve this recommendation, we request that OJP reconsider
its decision not to add the needed language to the certification template
and inform the OIG of its determination and proposed corrective action
by March 1, 2008.

      Recommendation 2. Provide applicants with guidance that
allegations of serious negligence or misconduct substantially affecting
the integrity of forensic results are to be referred to the certified
government entities.

       Status. Resolved – open

      Summary of the OJP Response. OJP concurred with the
recommendation and states that it will provide applicants with guidance
that encourages referrals of allegations of serious negligence or
misconduct to government entities for independent external
investigation.

      OIG Analysis. The actions planned by OJP are responsive to our
recommendation. To close the recommendation, by May 15, 2008,
please provide the OIG with a copy of the guidance for FY 2008 Coverdell
Program applicants.



______________________________________________________________________________________
U.S. Department of Justice                                                      49
Office of the Inspector General
Evaluation and Inspections Division
      Recommendation 3. Revise and document the Coverdell Program
application review process so that only applicants that submit complete
external investigation certifications are awarded grants.

       Status. Resolved – open

      Summary of the OJP Response. OJP concurred with the
recommendation and agreed to require applicants to provide a complete
external investigation certification prior to receiving funds. In addition
OJP agreed to provide the OIG with written program management
guidelines for the Coverdell Program that will encompass the review of
applications for the external investigation certification as well as other
requirements of the program.

      OIG Analysis. The actions planned by OJP are responsive to our
recommendation. To close the recommendation, by May 15, 2008,
please provide the OIG with a copy of the written program management
guidelines for the Coverdell Program.




______________________________________________________________________________________
U.S. Department of Justice                                                      50
Office of the Inspector General
Evaluation and Inspections Division
